HEARING BEFORE THE JOINT CONGRESSIONAL REVIEW OF

           THE INTERNAL REVENUE SERVICE




                      May 19, 2005
     2:30 p.m. 1100 Longworth House Office Building
                     Washington, DC



                 J. RUSSELL GEORGE
                   Inspector General
    Treasury Inspector General for Tax Administration
                      WRITTEN STATEMENT OF
        TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                        J. RUSSELL GEORGE
             BEFORE THE JOINT CONGRESSIONAL REVIEW
                              OF THE
                    INTERNAL REVENUE SERVICE
                            MAY 19, 2005

Mr. Chairman and Members of the Joint Review, thank you for the opportunity to
participate in this discussion of the strategic plan and budget request for the
Internal Revenue Service (IRS). The IRS strategic plan consists of three primary
goals:

    •   Improve taxpayer service;
    •   Enhance enforcement of the tax law; and,
    •   Modernize the IRS through its people, processes, and technology.

Commissioner Everson has indicated that this strategic plan provides a roadmap
for IRS operations over the next five years, and that the guiding principle for the
IRS, Service + Enforcement = Compliance, relates his goal for striking the right
balance necessary to achieve compliance and address the tax gap.1

The IRS deserves credit for its considerable accomplishments in
fiscal year (FY) 2004. For example, the IRS processed approximately 224 million
tax returns and collected over $2 trillion in FY 2004. Enforcement revenue
collected increased by over 15 percent to more than $43 billion. The IRS
implemented the first release of the Customer Account Data Engine (CADE)
modernization project,2 which processed over a million tax returns during the
2005 filing season.3 Furthermore, the completion of the initial phases of the
National Research Project allowed the IRS to recently release an updated
estimate of the tax gap.4

However, in the midst of these accomplishments, the IRS faces some significant
challenges. The IRS’ updated estimates of the tax gap, which is defined as the
difference between what taxpayers are supposed to pay and what is actually and
timely paid, have risen to between $312 and $353 billion annually. These figures
are alarmingly high and indicate a significant threat to our nation’s tax system.
1
  INTERNAL REVENUE SERVICE, PUB. 3744, IRS STRATEGIC PLAN 2005-2009 (Rev. 2004).
2
  The CADE project is the foundation for managing taxpayer accounts in the IRS modernization
plan.
3
  The tax return filing season is the period from January through mid-April when most individual
income tax returns are filed.
4
  The IRS has initiated the National Research Program to measure taxpayers’ voluntary
compliance, to better approximate the tax gap, and to develop updated formulas to select
noncompliant returns for examination. The first phase of this program addresses reporting
compliance for individual taxpayers, and data from this phase were used to produce the recently
updated estimates of this portion of the tax gap.


                                                2
Although enforcement revenue has increased, gross accounts receivable grew
by two percent in 2004 to an historical high of $285 billion. Cost increases and
schedule delays continue to occur in business systems modernization, even
though the number of projects under development has been reduced.
Additionally, security vulnerabilities persist in existing IRS systems, and are even
present in modernized systems developed by the IRS and the PRIME
contractor.5

The proposed budget for FY 2006 provides additional resources to IRS
enforcement in order to narrow the tax gap. However, the IRS has proposed
cuts to customer service to offset a portion of the funding that is being redirected
towards enforcement. I have some concerns about these decisions, which I
discuss later in this testimony.

One aspect of the budget that the Treasury Inspector General for Tax
Administration (TIGTA) is currently evaluating is the IRS’ application of user fees
to taxpayers who seek special services.6 Opportunities may exist to charge a
more accurate amount for these services, which would help offset operating
costs. In addition, last year Congress authorized the IRS to use private collection
agencies to collect taxes. Once the IRS implements this program, more
outstanding taxes should be collected. TIGTA will be vigilant in overseeing the
IRS’ use of these contractors to ensure that abuses do not occur. Past
experiences with bank lockbox thefts and insufficient contractor oversight have
provided invaluable lessons to help prevent similar issues from plaguing the
collection of tax debt.7

I will also address the progress the IRS has made and the challenges it faces in
the security and modernization of IRS information systems, the tax filing season,
customer service, and implementation of the various provisions of the IRS
Restructuring and Reform Act of 1998 (RRA 98).8 TIGTA has performed
extensive work in these areas, and I appreciate the opportunity to highlight our
results.



5
  The PRIME contractor, Computer Sciences Corporation, is the principal contractor responsible
for modernizing IRS business systems.
6
  These special services include processing installment agreement requests; providing Employee
Plans/Exempt Organization letter rulings, opinion letters, determination letters, and advisory
letters; providing IRS Counsel rulings; processing Offer-In-Compromise applications; and
providing copies of tax returns.
7
  TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2002-30-055, FEDERAL
REQUIREMENTS NEED STRENGTHENING AT LOCKBOX BANKS TO BETTER PROTECT TAXPAYER
PAYMENTS AND SAFEGUARD TAXPAYER INFORMATION (2002); TREASURY INSPECTOR GENERAL FOR
TAX ADMINISTRATION, REF NO. 2004-20-0063, INSUFFICIENT CONTRACTOR OVERSIGHT PUT DATA AND
EQUIPMENT AT RISK (2004).
8
  PUB. L. NO. 105-206, 112 STAT. 685 (CODIFIED AS AMENDED IN SCATTERED SECTIONS OF 2 U.S.C., 5
U.S.C. APP. 3, 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., AND 49
U.S.C.).


                                                3
                       Information Systems Security

In the area of information systems security, the IRS has developed security
policies and procedures but has not implemented them effectively or consistently.
As a result, sensitive information remains vulnerable to attack by disgruntled
employees and contractors. While recognizing that complete security can never
be achieved and that there are necessary trade-offs between security and
operational needs, TIGTA continues to identify significant weaknesses in
infrastructure and applications security.

Although TIGTA is not aware of a successful intrusion into the IRS network from
an external source, such as the Internet, TIGTA investigations have led to two
significant prosecutions for computer intrusions. One case involved an IRS
contractor who installed on a large database server malicious code that was
designed to destroy the information on the system. The second case involved an
IRS contractor that illegally accessed and compromised several large servers in
an IRS computing center. In both cases, although no taxpayer data was
immediately at risk, IRS contractors were responsible, which highlights the fact
that the greatest threat to IRS systems is from internal sources such as
disgruntled employees or contractors.

The Government Accountability Office (GAO) recently issued a report
documenting weaknesses in controls to prevent, limit, or detect unauthorized
access to taxpayer and Bank Secrecy Act data from the IRS’ internal network.9
Recent TIGTA reviews of access controls over taxpayer data in IRS’ Criminal
Investigation function, Appeals office, and Office of Chief Counsel have noted
similar exposures to unauthorized access.10

I am particularly concerned with weaknesses TIGTA has identified in the systems
developed as part of the modernization program. We found that modernized
systems had been implemented without protection against common security
vulnerabilities. For example, computers were running unnecessary high-risk
applications, systems were implemented without disaster recovery capability, and




9
  GOVERNMENT ACCOUNTABILITY OFFICE, PUB. NO. GAO-05-482, INFORMATION SECURITY:
INTERNAL REVENUE SERVICE NEEDS TO REMEDY SERIOUS WEAKNESSES OVER TAXPAYER AND BANK
SECRECY ACT DATA (2005).
10
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-20-081, KEY SECURITY
CONTROLS OF THE CRIMINAL INVESTIGATION MANAGEMENT INFORMATION SYSTEM HAVE NOT BEEN
IMPLEMENTED (2004); TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO.
2005-20-069, SECURITY CONTROLS FOR THE APPEALS CENTRALIZED DATABASE SYSTEM COULD BE
IMPROVED (2005); TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO.
2005-20-036, SECURITY CONTROLS FOR THE COUNSEL AUTOMATED SYSTEM ENVIRONMENT
MANAGEMENT INFORMATION SYSTEM COULD BE IMPROVED (2005).


                                            4
computer configurations did not meet IRS standards.11 These systems cost
hundreds of millions of dollars to develop and implement, yet the security of
these systems has not received adequate attention. The IRS will have to correct
these security deficiencies after the systems are already running; however, it is
much more costly and complex to retrofit systems after-the-fact than to install
security features in the design and development of the systems.

For example, the IRS paid the PRIME contractor to develop a system that
tracked the activity of users on modernized systems. What is troubling is that the
IRS accepted this system in late 2002 despite knowing that the system could not
be used for the purpose for which it was designed.12 Software vulnerabilities and
performance issues rendered it basically useless for identifying unauthorized
accesses to IRS systems. After more than two years, the IRS still has not
completed corrective actions to address these weaknesses and ensure that
monitoring of user activity occurs on the modernized systems currently operating.

Additionally, while security roles and responsibilities have been defined,
significant security weaknesses exist throughout the IRS because IRS
employees with key security responsibilities are not fulfilling their duties. For
example, TIGTA has identified vulnerabilities on the network and in sensitive
systems across the IRS.13 IRS employees have not consistently assessed and
accredited the security controls present on their systems. The IRS has initiated
actions to improve the training of its key security employees, and we will continue
to monitor whether employees receive proper training in this complex area.

Although electronic access controls can help prevent some security breaches, it
is also critical to ensure employees are aware of their individual security
responsibilities to protect taxpayer data from unauthorized access. When TIGTA
auditors posing as IRS Information Technology employees recently called IRS
employees and managers, 35 percent of them were willing to provide their user
account names and change their passwords as requested.14 With an employee’s
user account name and password, a hacker could gain access to IRS systems,
though the IRS’ strong systemic perimeter controls lessen this risk. Even more
significant, a disgruntled employee could use the same social engineering tactics
and obtain another employee’s username and password. With some knowledge
11
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-20-135 SECURITY
WEAKNESSES IN THE MODERNIZATION INFRASTRUCTURE HAVE NOT BEEN ADEQUATELY ADDRESSED
(2004); TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-20-024, THE
DISASTER RECOVERY PROGRAM HAS IMPROVED, BUT IT SHOULD BE REPORTED AS A MATERIAL
WEAKNESS DUE TO LIMITED RESOURCES AND CONTROL WEAKNESSES (2005).
12
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-20-135 THE AUDIT
TRAIL SYSTEM FOR DETECTING IMPROPER ACTIVITIES ON MODERNIZED SYSTEMS IS NOT FUNCTIONING
(2004).
13
   These vulnerabilities are discussed in further detail in limited official use audit reports provided
to the IRS. See TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, supra note 10.
14
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-20-042, WHILE
PROGRESS HAS BEEN MADE, MANAGERS AND EMPLOYEES ARE STILL SUSCEPTIBLE TO SOCIAL
ENGINEERING TECHNIQUES (2005).


                                                   5
of IRS systems and applications, this disgruntled employee could more easily
gain unauthorized access to IRS data as well as damage information on IRS
systems.

Although many steps have been taken to limit risks, IRS systems and taxpayer
information remain susceptible to threats that could impact the confidentiality,
integrity, and availability of data and information systems.


                          Business Systems Modernization

Modernizing the IRS’ computer systems has been a persistent challenge for
many years and will likely remain a challenge for the foreseeable future. The
latest effort to modernize the IRS’ systems, the Business Systems Modernization
(BSM) program, began in FY 1999.15 The purpose of the BSM program is to
modernize the IRS’ technology and related business processes. The BSM
program is a complex effort which will involve integrating thousands of hardware
and software components. All of this must be done while replacing outdated
technology and continuing tax administration.

This effort will be lengthy and costly. It is estimated to last up to 15 years, and
the IRS will incur PRIME contract costs over $8 billion. The program is in its
seventh year and has been allocated approximately $1.9 billion in funding for
contractor activities. The IRS has further supported the modernization effort by
funding the Business Systems Modernization Office (BSMO) with $213 million
since FY 1999.

Key Projects Have Made Significant Progress During the Past Year

Working with its contractors, the IRS has deployed projects that provide value to
taxpayers and has built the infrastructure needed to support these projects. Two
BSM projects have been deployed and delivered value to taxpayers in the past
year: the Customer Account Data Engine (CADE) and the Modernized e-File
(MeF) project. The CADE project is the foundation for managing taxpayer
accounts in the IRS modernization plan.16 Once completed, CADE will consist of

15
   Prior to the BSM program, the IRS initiated the Tax Systems Modernization (TSM) program.
The purpose of TSM was the same as the purpose of BSM: to modernize the IRS’ technology
and related business processes. The TSM program, however, encountered management and
technical weaknesses. After spending over $3 billion on TSM, the program was abandoned and
the BSM program was initiated.
16
   In conjunction with other applications, the CADE will eventually allow employees to post
transactions and update taxpayer account and return data online from their desks. Updates will
be immediately available to any employee who accesses the data and will provide a complete,
timely, and accurate account of taxpayer information. In contrast, the current Master File
processing system can take up to two weeks to update tax accounts, and IRS employees may
need to access several computer systems to gather all relevant information related to tax
accounts.


                                               6
databases and related applications to replace the IRS’ existing Master File
processing systems.17 In July 2004, the IRS delivered CADE Release 1.1 which
successfully processed refund and even-balance Forms 1040EZ18 for single
taxpayers with no pending tax issues. CADE Release 1.2 incorporated the tax
law changes for the 2005 filing season and started processing the same type of
tax returns in January 2005. It has processed over 1 million tax returns during
the 2005 filing season.

The MeF project involves developing a modernized, web-based platform for
electronically filing approximately 330 different IRS forms. The MeF deployed
three releases from February 2004 to January 2005, which allow for the
electronic filing of over 100 different tax forms, including forms filed by
corporations and exempt organizations.

In addition, the IRS and its contractors issued the first release of the Integrated
Financial System (IFS), which provides new capabilities for internal use. The IFS
was developed to address administrative financial management weaknesses in
IRS accounting systems. The first release of the IFS became fully operational in
January 2005, and included accounts payable, accounts receivable, general
ledger, budget execution, cost management, and financial reporting activities. A
future IFS release was planned to include property, performance, and
procurement management, but work was suspended in early 2005 due to budget
constraints. Without this future release, the IRS will be unable to fully address a
material weakness in its accounting systems.

Budget Reductions Have Resulted In Decreased Development Activities

During FY 2004, the IRS scaled back development activities because of reduced
appropriations. The available budget caused the IRS to limit its development
activity to focus primarily on the CADE, MeF, and the Filing and Payment
Compliance (F&PC)19 projects. For example, the schedule for the CADE project
has been revised several times to accommodate development delays and
uncertainty in program direction. The refocus of the CADE project impacts
related modernization activity such as the Customer Account Management
(CAM) project.20 The CAM project is intended to improve customer service by
17
   The Master File is the IRS database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.
18
   Form 1040EZ is the income tax return used by some single and joint filers with no dependents.
The initial release of the CADE does not process Forms 1040EZ for joint filers.
19
   The F&PC project was intended to provide support for detecting, scoring, and working nonfiler
cases (filing compliance) and delinquency cases (payment compliance). The first release of the
F&PC project is called the Private Debt Collection project. The IRS completed the planning
phases for the Filing and Payment Compliance project in 2002, but suspended the project due to
concerns with costs. In FY 2004, the portion of this project designed to support private debt
collection was restarted.
20
   The CAM project is intended to provide improved technology and business processes to
provide account and tax law assistance, manage case workflow, and support other modernization
efforts by providing access to comprehensive, timely, and accurate taxpayer account information.


                                               7
providing more accurate and timely account maintenance and analysis. The
uncertainty of CADE’s development, along with reductions in available funding,
affect when CAM can be developed. Without an application such as CAM,
CADE can only act as a system to process tax returns that require no account
adjustments.

In addition, the budget reduction prompted the IRS to suspend further
development of the IFS project and cancel the Custodial Accounting Project
(CAP). Canceling CAP made the initial releases unusable for its intended
purpose of performing accounting work. The IRS has indicated it will leverage
the work products and knowledge gained from CAP in other modernization
initiatives. While leveraging may produce some residual benefits, a significant
portion of the $135 million spent on CAP will result in unrecoverable costs.21

Weaknesses Remain in Certain Areas of BSM Program Management

TIGTA has also identified weaknesses in the BSMO, which is responsible for the
overall management of the BSM program. These weaknesses are in the
following areas: requirements management, contract management, software
testing, and security controls. To address issues in requirements management,
the IRS established a Requirements Management Office in January 2005. The
Office is responsible for developing processes and procedures to effectively
create and manage project requirements. Weaknesses in contract management
have resulted from the BSMO failing to consistently use contract provisions and
negotiations that would protect the best interest of the Federal Government.22 In
the area of software testing, the BSMO needs to clearly define testing
procedures,23 improve testing practices,24 and ensure that software is tested prior
to system deployment.25 Finally, the BSMO needs to place additional emphasis
on security controls in the design of information systems.26


21
   The IRS reported that the data models developed for CAP can be used on the CADE project,
and the CAP analysis and requirements can be used as the basis for a new system.
22
   For example, contract award justifications did not always provide adequate detail for not using
firm fixed-price contract provisions. Contracting provisions that could balance risk between the
IRS and the contractor were used inconsistently. Additionally, consistent application of best
practices could further improve the contract negotiations process. TREASURY INSPECTOR GENERAL
FOR TAX ADMINISTRATION, DRAFT, AUDIT NO. 200420002, WHILE MANY IMPROVEMENTS HAVE BEEN
MADE, CONTINUED FOCUS IS NEEDED TO IMPROVE CONTRACT NEGOTIATIONS AND FULLY REALIZE THE
POTENTIAL OF PERFORMANCE-BASED CONTRACTING (2005).
23
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-20-157, THE OFFICE OF
RELEASE MANAGEMENT CAN IMPROVE CONTROLS FOR MODERNIZATION PROGRAM
COORDINATION (2004).
24
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-20-147, THE
INTEGRATED FINANCIAL SYSTEM PROJECT TEAM NEEDS TO RESOLVE TRANSITION PLANNING AND
TESTING ISSUES TO INCREASE THE CHANCES OF A SUCCESSFUL DEPLOYMENT (2004).
25
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-20-019, SYSTEM
REQUIREMENTS WERE NOT ADEQUATELY MANAGED DURING THE TESTING OF THE CUSTODIAL
ACCOUNTING PROJECT (2004).
26
   Draft audit report has not yet been issued.


                                                8
Cost Increases and Schedule Delays Continue

Since the start of the modernization effort, the BSM program has experienced
cost overruns and schedule delays in its project development and deployment.
In early 2005, the IRS reported project deliveries were within budget and
schedule estimates for projects delivered since August 2004. This assessment
was based on cost and schedule estimates that the IRS revised in May 2004.

Our analysis of the re-baselined project deliveries confirms the IRS’ assessment
that project releases were generally within budget and on schedule. However,
our comparison of the May 2004 and February 2005 IRS BSM expenditure plan
estimates shows significant project cost and schedule increases for several
ongoing projects, such as MeF and F&PC.

The Division of Responsibilities Between the IRS and the PRIME Contractor

In February 2004, Commissioner Everson testified that the IRS would carefully
assess the PRIME contractor’s performance on current projects. The
Commissioner would consider the results of the PRIME contractor’s overall
program management and integration efforts before awarding additional work.

In January 2005, the IRS began assuming the role of systems integrator from the
PRIME contractor due to reductions in funding and concerns about the adequacy
of the PRIME contractor’s performance. In the IRS’ new operating model as the
systems integrator, the IRS will now be responsible for program-level activities
such as:

       •   Systems integration;
       •   Business requirements management and validation;
       •   Procurement administration;
       •   Engineering; and,
       •   Architecture.

Skills needed to perform these responsibilities have been an issue of concern.
Specialized skill positions, such as systems architects and engineers, have been
difficult to fill. The assumption of the integrator role by the IRS is recognized in
the BSM program as part of its highest priority needs.

TIGTA has found that the BSM program has begun to assign the role of systems
integrator to parties other than the PRIME contractor. For example, the BSMO
acted as the integrator for the MeF project, and the Northrop Grumman
Corporation served as the integrator for CAP before it was cancelled. The PRIME
contractor’s new primary function is to deliver projects and to provide support
services to the IRS. On new projects, the PRIME contractor will compete for the
contracts with other contractors. The effective management of contractor



                                         9
performance and accountability will become even more important and difficult for
the IRS as it now functions as the systems integrator for all contractors.

Previously Reported Challenges Still Exist

During the past three fiscal years, our annual BSM program assessments27 have
cited four primary challenges the IRS and its contractors must meet to achieve
program success:

     1) Implement planned improvements in key management processes and
        commit necessary resources to enable success;
     2) Manage the increasing complexity and risks of the BSM program;
     3) Maintain the continuity of strategic direction with experienced leadership;
        and,
     4) Ensure contractor performance and accountability are effectively
        managed.

While the IRS has taken steps to address these areas, continued attention by
management will be required for the IRS to succeed with its modernization
activities. The GAO has also recognized the need for continued management
attention and has included the modernization program as a high-risk area in its
2005 High-Risk Report,28 as it has since 1995.29

Commissioner Everson testified in April 2005 that the IRS substantially met its
2004 plans for the BSM program based on the delivery of the planned CADE,
MeF, e-Services,30 and IFS project releases. Although these releases were
operational on or close to revised cost estimates and delivery dates, they
exceeded original cost estimates and delivery dates and did not provide all
intended systems capabilities. We remain cautious about declaring success
based on results achieved in 2004 due to our historical perspective of the
modernization effort and our familiarity with the persistent modernization
challenges facing the IRS.




27
   The annual BSM program assessments are required by RRA 98.
28
   GOVERNMENT ACCOUNTABILITY OFFICE, PUB. NO. GAO-05-207, HIGH-RISK SERIES (2005).
29
   It is worth noting that GAO also identified the Tax Systems Modernization program, which
preceded the BSM program, as a high-risk area.
30
   The e-Services project focuses on changing the way taxpayers transact and communicate with
the IRS. This web-based project expands the existing third-party tools and data collection
processes.


                                             10
                                    Customer Service

To assist taxpayers in complying with the complex tax code, the IRS offers
assistance through its toll-free telephone system, walk-in services, and written
and electronic communications, including the IRS Web site: www.IRS.gov. The
effectiveness of each of these services influences a taxpayer’s ability and desire
to comply voluntarily with tax laws.

RRA 98 mandated that the IRS be more responsive to customer needs. Since
the passage of RRA 98, the IRS’ focus on customer service has led to many
improvements. Individual taxpayer satisfaction rates with the IRS have increased
since the law’s passage, rising from 51 to 64 percent between 1999 and 2004.31
The ability of taxpayers to contact the IRS via telephone has improved, and
customer service at the Taxpayer Assistance Centers (TACs) has shown
progress.32

The IRS internet site, www.IRS.gov, is an excellent source for forms,
publications, and other guidance, and taxpayers visited the site over 139 million
times last year. The site also received an award for being the nation’s most
reliable government internet site.33 Electronic filing of tax returns is continuing to
grow, and the ability to check the status of tax refunds online has been a
successful IRS project that is helpful to taxpayers.34

The following chart shows the customer service goals established by the IRS and
the actual results in each area as measured by the IRS and TIGTA.




31
   AMERICAN CUSTOMER SATISFACTION INDEX, "ACSI OVERALL FEDERAL GOVERNMENT SCORES WITH
HISTORIC SCORES OF AGENCIES MEASURED 1999- 2004,” DECEMBER 14, 2004.
32
   Taxpayer Assistance Centers are walk-in sites where taxpayers can get answers to both
account and tax law questions and receive assistance with return preparation. We audited the
accuracy of tax law answers given to taxpayers at these Centers and determined that the
accuracy rate had increased from 54 to 67 percent from January 2002 to April 2004. TREASURY
INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-30-038, ACCESS TO THE TOLL-FREE
TELEPHONE SYSTEM WAS SIGNIFICANTLY IMPROVED IN 2003, BUT ADDITIONAL ENHANCEMENTS ARE
NEEDED (2004); TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-021,
CUSTOMER SERVICE AT THE TAXPAYER ASSISTANCE CENTERS IS IMPROVING BUT IS STILL NOT
MEETING EXPECTATIONS (2004).
33
   INTERNAL REVENUE SERVICE, IRS.GOV CITED AS MOST RELIABLE GOVERNMENT WEB SITE,
IR-2004-131, AVAILABLE AT http://www.irs.gov/newsroom/article/0,,id=130492,00.html (LAST VISITED
MAY 10, 2005).
34
   INTERNAL REVENUE SERVICE, FREE FILE TOPS LAST YEAR’S TOTAL, IR-2005-36, AVAILABLE AT
http://www.irs.gov/newsroom/article/0,,id=137055,00.html (LAST VISITED MAY 10, 2005).


                                              11
                               IRS Customer Service Results (Compiled by TIGTA)


                                IRS-Reported        IRS-
               IRS-Reported       Customers       Reported IRS-Reported IRS Goals
             Customers Served     Served or      Accuracy-     Accuracy-   Fiscal  TIGTA-
                or Services -  Services - Filing Fiscal Year Filing Season  Year  Reported
              Fiscal Year 2004   Season 2004        2004          2004     2004   Accuracy          TIGTA Results35
                                   3.8 million
                 7.7 million
Taxpayer                           taxpayers;                                                 TIGTA made 125 visits and asked
              taxpayers; 1.6                       75%          75%         80%        67%
Assistance                       790,000 for tax                                              250 questions in the 2004 Filing
             million for tax law
Centers                               law                                                     Season36
Referral-          381,561         339,105         64%          64%                    74%    TIGTA placed 70 calls during the
Mail37                                                                    Unknown             2003 Filing Season38
Toll-Free       31,667,354        14,779,747       89%          89%         90%        86%    TIGTA monitored 264 calls during
Accounts39                                                                                    the 2004 Filing Season40
                                                                                              TIGTA monitored 322 calls during
Toll-Free          5,730,632      3,907,260        80%          79%         85%        62%
                                                                                              the 2004 Filing Season42
Tax Law41
                                                                                              TIGTA sampled 76 responses
Internet-          111,203          65,737         65%          60%         78%        83%
                                                                                              during the 2002 Filing Season44
Based43


              35
                 TIGTA’s results are based on testing in the IRS’ Wage and Investment Division.
              36
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-152 TAXPAYER
              EXPERIENCE AT THE TAXPAYER ASSISTANCE CENTERS COULD BE IMPROVED (2004).
              37
                 Taxpayers that call the Tax Help Line (1-800-829-1040) and ask more complex questions are
              transferred to the IRS’ Referral Mail (R-Mail) Program. The R-Mail Program is designed to
              answer complex tax law questions via telephone, e-mail, or correspondence within three
              workdays. The IRS did not have a 2004 goal for R-mail accuracy. We are not conducting an
              audit of R-mail this filing season.
              38
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-029, IMPROVEMENT
              IS NEEDED IN E-MAIL RESPONSES TO COMPLEX TAX QUESTIONS SUBMITTED THROUGH TOLL-FREE
              TELEPHONE HELP LINES (2003).
              39
                 This category includes taxpayers that call the Tax Help Line and ask questions about their
              accounts, including information on the status of their returns/refunds, corrections of errors found
              during processing, and corrections resulting from adjustments or examination assessments. The
              Toll-Free Program counts services provided, not taxpayers served.
              40
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-018, TOLL-FREE
              ACCOUNT ASSISTANCE TO TAXPAYERS IS PROFESSIONAL AND TIMELY, AND THE QUALITY OF
              INFORMATION PROVIDED HAS IMPROVED (2004).
              41
                 This category includes taxpayers that call the Tax Help Line and ask about tax law issues
              including filing status and exemptions, pensions, retirement accounts, the Earned Income Tax
              Credit, and the Child Tax Credit. This program counts services provided, not taxpayers served.
              42
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-150, ADDITIONAL
              EFFORT ANSWERING TAX LAW QUESTIONS WOULD IMPROVE CUSTOMER SERVICE (2004).
              43
                 The Electronic Tax Law Assistance (ETLA) Program offers taxpayers the ability to submit tax
              law questions 24 hours a day, 7 days a week. The IRS is limiting taxpayer access by locating the
              link to ETLA in a section of its website that is difficult to find. We are conducting an ETLA audit
              this filing season.
              44
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2003-40-014, RESPONSE
              ACCURACY IS HIGHER FOR THE INTERNET PROGRAM THAN FOR OTHER OPTIONS AVAILABLE TO
              TAXPAYERS NEEDING ASSISTANCE WITH TAX LAW QUESTIONS (2002).


                                                              12
Although the IRS is striving to reach its goals in the customer service area, I am
concerned about plans to reduce customer service in order to provide more
funding for enforcement initiatives. The IRS recently announced plans to close a
significant percentage of the TACs, which are the sites that provide face-to-face
services to taxpayers. As part of a planned audit, we will review the methodology
used by the IRS to determine which TACs to close. At this point, I am skeptical
that the IRS has adequate data to assess the impact that closing these centers
will have on customer service. I am also concerned that the IRS has insufficient
data to draw conclusions on the likelihood that taxpayers, who have used these
centers in the past, will be able to use other methods of seeking help, such as
the internet or telephone. I strongly recommend that the IRS further research
these issues before closing selected TACs.

Additionally, the IRS has decided to cancel the Telefile project. In 2003, TIGTA
recommended that the IRS explore other opportunities to expand – not cancel –
the Telefile program.45 We continue to believe the Telefile program provides
services to millions of taxpayers and is worth pursuing. However, the IRS has
decided to discontinue the Telefile program after the 2005 filing season citing as
reasons high costs, low demand, and the increased availability of e-filing options.
If the IRS follows through with its decision to discontinue the Telefile program, it
should at least develop a strategy to accommodate Telefilers who are unable to
e-file.


                                    Filing Season

In addition to providing customer service to American taxpayers, the IRS must
coordinate tax law changes, programs, activities, and resources to effectively
plan and manage each filing season. The tax return filing season impacts every
American taxpayer and its success affects the entire Federal Government.

I am pleased to report that the 2005 Filing Season has gone well, and TIGTA has
identified no major problems. As of April 29, 2005, the IRS had received
approximately 121.1 million individual income tax returns with over 66 million filed
electronically, an increase of nearly 11 percent compared to the same period last
year. Additionally, 88 million refunds had been issued, averaging $2,127 per
return. Of the total refunds, 50 million were issued using the direct deposit
option.

Our audit work for the 2005 filing season is currently in progress, but preliminary
results indicate that most tax forms and publications were accurately updated to




45
  TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2003-40-092, OPPORTUNITIES
EXIST TO EXPAND THE TELEFILE PROGRAM (2003).


                                          13
reflect tax law changes. TIGTA found some errors, however, in publications
regarding the calculation of the child tax credit for certain military personnel.46

The IRS, though, continues to struggle to ensure certain tax law provisions have
been accurately implemented.47 For example, during the 2004 filing season, the
IRS did not recover $21 million in overpayments of advanced child tax credits.
Additionally, approximately $152 million in advanced child tax credits remained
unclaimed by taxpayers. Taxpayers also continued to receive erroneous
deductions for student loan interest and were inappropriately allowed both
education credits and deductions for tuition and fees. As a result, over
$3.3 million in taxes was not paid. These same issues continued in the 2005
filing season.

Another issue that the IRS has not effectively addressed is ensuring the
appropriate handling of accounts of taxpayers with combat zone indicators.48
Over 58 percent of the taxpayers with an active combat zone indicator were
incorrectly coded (i.e., the taxpayers were no longer serving in a combat zone).
This allows taxpayers to receive special tax treatment to which they are no longer
entitled, such as the ability to file late, not be audited, and have collection action
suspended.

The IRS was also not identifying and correcting errors that were created when
attempting to update the tax accounts of military service members who had
entered or exited a Combat Zone. These errors could occur for various reasons,
such as missing information or mismatches between names or Social Security
Numbers. As a result, taxpayers who are serving in a Combat Zone may not
have indicators on their accounts and would be at risk of not getting the Combat
Zone benefits they deserve. The IRS did not keep records of errors resulting
from mismatches or missing information, which prevented TIGTA from
determining the extent of this condition. TIGTA has reported these findings to
the IRS and will continue to monitor whether this and other filing season
recommendations have been implemented.




46
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, DRAFT, AUDIT NO. 200440047, FORMS,
PUBLICATIONS, AND COMPUTER PROGRAMMING REQUESTS WERE ADEQUATELY ADDRESSED AND
UPDATED IN MOST INSTANCES FOR THE 2005 FILING SEASON (2005).
47
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-016, THE 2004
FILING SEASON WAS COMPLETED TIMELY AND ACCURATELY, BUT SOME TAX LAW CHANGES HAVE NOT
BEEN EFFECTIVELY IMPLEMENTED (2004).
48
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-077, TAXPAYERS
IDENTIFIED AS SERVING IN COMBAT ZONES WERE PROPERLY AFFORDED TAX BENEFITS, BUT ACCOUNT
IDENTIFICATION AND MAINTENANCE PROCESSES NEED IMPROVEMENT (2005).


                                           14
                 The IRS Restructuring and Reform Act of 1998

RRA 98 included significant structural changes in management and oversight of
the IRS, as well as provisions to strengthen and enhance the rights of taxpayers.
Since the enactment of RRA 98, TIGTA has performed a series of audits to
determine the IRS’ progress in implementing and ensuring compliance with these
provisions. The law requires TIGTA to review 10 taxpayer rights provisions, as
well as two other taxpayer rights provisions from prior legislation. TIGTA is
currently assessing the IRS’ compliance with these provisions for the seventh
consecutive year. Our most recent audit results on these taxpayer rights
provisions are as follows:

•    Notice of levy – RRA 98 requires the IRS to notify taxpayers at least 30 days
     before initiating any levy action to give taxpayers an opportunity to formally
     appeal the proposed levy. Prior TIGTA reports have recognized that the IRS
     has implemented tighter controls over the issuance of systemically generated
     levies. Our testing of these controls indicates that they continue to function
     effectively.

     However, revenue officers sometimes issue to taxpayers levies that are not
     systemically generated. In 5 of 40 cases reviewed, we determined that
     revenue officers seized taxpayer assets using manual levies without notifying
     taxpayers of their appeal rights. Without notification of their appeal rights,
     taxpayers may not be aware that they are entitled to a hearing or other due
     process safeguards. Not offering appeal rights to taxpayers prior to issuing
     levies is a potential section 1203 violation of RRA 98 and could result in the
     revenue officer being terminated for misconduct.49 We recommended that the
     IRS require managers to review and approve all manual levies prepared by
     revenue officers in order to ensure taxpayers are properly advised of their
     appeal rights.50

•    Restrictions on the use of enforcement statistics to evaluate employees –
     Section 1204(a) of RRA 98 prohibits the IRS from using tax enforcement
     results to evaluate employees or to impose or suggest production quotas or
     goals. Section 1204(b) requires employees to be evaluated using the fair and
     equitable treatment of taxpayers as a performance standard. Section 1204(c)
     requires supervisors to certify quarterly whether tax enforcement results were
     used in a prohibited manner. TIGTA is required to evaluate annually the IRS’
     compliance with section 1204.51


49
   TIGTA’s Office of Investigations is evaluating these cases.
50
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-30-094, ADDITIONAL
EFFORTS ARE NEEDED TO ENSURE TAXPAYER RIGHTS ARE PROTECTED WHEN MANUAL LEVIES ARE
ISSUED (2004).
51
   See 26 U.S.C. § 7803(d)(1) (2005).


                                           15
     Our review of performance and supervisory documentation for
     75 enforcement employees found the IRS in compliance with sections
     1204(a) and (b). In addition, a review of a statistical sample of 43
     supervisors’ certifications indicated that the IRS was in compliance with
     section 1204(c).52

•    Notice of lien – The IRS attempts to collect Federal taxes from taxpayers by
     sending letters, making telephone calls, and meeting face-to-face with
     taxpayers. When initial contacts by the IRS do not result in the successful
     collection of unpaid taxes, the IRS has the authority to attach a claim to the
     taxpayer’s assets for the amount of unpaid tax liabilities.53 The IRS files a
     Notice of Federal Tax Lien (NFTL), which notifies the public that a lien exists.
     Since January 19, 1999, section 6320 of the Internal Revenue Code has
     required the IRS to notify taxpayers in writing within five business days of
     filing an NFTL.

     We determined the IRS did not completely comply with the law. A statistically
     valid sample of 150 NFTLs identified 7 NFTLs (4.7 percent) for which the IRS
     did not mail lien notices within five business days. In addition, we could not
     determine if the IRS complied with the law for 35 NFTLs (23.3 percent)
     because it could not provide proof of timely mailing. Finally, in 11 of the
     150 NFTLs reviewed (7.3 percent), the IRS did not follow its own internal
     guidelines when issuing lien notices, including the guidelines for notifying
     taxpayer representatives and resending notices when they are returned as
     undeliverable.54

•    Seizures – To ensure taxpayers’ rights are protected, RRA 98 amended the
     property seizure provisions in sections 6330 through 6344 of the Internal
     Revenue Code. Our review of a random sample of 50 of 375 seizures
     conducted between July 1, 2003, and June 30, 2004, determined that the IRS
     did not comply with all legal and internal guidelines when conducting
     seizures. We identified 17 instances in 12 seizures in which the IRS did not
     fully comply with the law. For example, in seven instances all required forms
     relating to the sales of seized property were not provided to taxpayers, and in
     two instances proceeds resulting from seizures were not properly applied to
     taxpayer accounts. Although the instances we identified were technical in
     nature and did not adversely affect the taxpayers involved, not following legal
     and internal guidelines could result in abuses of taxpayer rights.55

52
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-066, FISCAL
YEAR 2004 STATUTORY AUDIT OF COMPLIANCE WITH LEGAL GUIDELINES RESTRICTING THE USE OF
RECORDS OF TAX ENFORCEMENT RESULTS (2004).
53
   See 26 U.S.C. § 6321 (2005).
54
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, DRAFT, AUDIT NO. 200430026, FISCAL
YEAR 2005 STATUTORY REVIEW OF COMPLIANCE WITH LIEN DUE PROCESS PROCEDURES (2005).
55
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, DRAFT, AUDIT NO. 200430025,
FY 2005 REVIEW OF COMPLIANCE WITH LEGAL GUIDELINES WHEN CONDUCTING SEIZURES OF
TAXPAYERS’ PROPERTY (2005).


                                           16
•    Illegal Tax Protestor (ITP) designations – Section 3707 of RRA 98 prohibits
     the IRS from referring to taxpayers as ITPs or any similar designations. The
     IRS has not reintroduced past ITP designations on the Master File, and
     formerly coded ITP taxpayer accounts have not been assigned similar Master
     File designations. In addition, the IRS does not have any current publications
     with ITP references and has initiated actions to remove ITP references from
     the various forms of the Internal Revenue Manual.56

     However, in 309 isolated instances, IRS employees continued to make
     references to taxpayers as ITPs and other similar designations in case
     narratives.57 TIGTA raised this issue in our FY 2003 report; however, the IRS
     disagreed with our determination that compliance with this provision prohibits
     IRS employees from using such designations in case narratives.58

•    Assessment statute of limitations – The IRS is required to advise taxpayers of
     their rights when the IRS requests an extension of the statute of limitations on
     the assessment of additional tax and penalties. TIGTA found that 21 percent
     of the case files reviewed did not contain any documentation to support that
     taxpayers had been advised of their rights. In instances in which taxpayers
     filed a joint tax return, 47 percent of the case files did not contain any
     documentation that each taxpayer listed on the tax return was separately
     informed of his or her rights (i.e., dual notification). In addition, when a
     taxpayer made a declaration of representation, 40 percent of the case files
     did not contain any documentation that the IRS provided both the taxpayers
     and their representatives with the advisement of rights. Also, current consent
     forms do not provide an explanation of taxpayer rights to limit or refuse to
     extend the statute of limitations.

     Although the IRS has revised its internal procedures over the last few years to
     help enhance controls, our reviews continue to identify instances in which
     there is no documentation that taxpayers were advised of their rights.
     Therefore, TIGTA recommended that the Deputy Commissioner for Services
     and Enforcement revise the various consent forms to include a statement that
     taxpayers have been informed of their rights regarding assessment statute
     extensions and have been provided a copy of Extending the Tax Assessment
     Period (Publication 1035).59


56
   The Internal Revenue Manual is the single official source for IRS policies, directives,
guidelines, procedures and delegations of authority in the IRS.
57
   Draft audit report has not yet been issued.
58
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2003-40-098, FISCAL YEAR
2003 STATUTORY AUDIT OF COMPLIANCE WITH LEGAL GUIDELINES PROHIBITING THE USE OF ILLEGAL
TAX PROTESTER AND SIMILAR DESIGNATIONS (2003).
59
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-108, FISCAL
YEAR 2004 STATUTORY AUDIT OF COMPLIANCE WITH NOTIFYING TAXPAYERS OF THEIR RIGHTS WHEN
REQUESTED TO EXTEND THE ASSESSMENT STATUTE (2004).


                                            17
•    Denials of requests for information under the Freedom of Information Act
     (FOIA) – Under section 1102(d)(3)(A) of RRA 98, TIGTA is required to
     conduct periodic audits of IRS denials of taxpayer requests to disclose
     information on the basis of Internal Revenue Code section 6103 and/or FOIA
     exemption (b)(7).60 In 7.1 percent (6 of 84) of the FOIA and Privacy Act61
     cases sampled, the IRS improperly withheld information from requestors.
     This represents a higher percentage of improper withholdings than reported in
     FY 2004, where only 4.4 percent of the requests were improperly handled.62

     In addition, the IRS improperly withheld tax return information from requestors
     in 3.1 percent of the Internal Revenue Code section 6103 cases sampled.
     This represents a significantly lower percentage of improper withholdings than
     the 14.6 percent we reported last year. The percentage of untimely
     responses to FOIA and Privacy Act requestors also decreased significantly to
     13.1 percent of the cases, as compared with percentages in previous years’
     audits ranging from 20 to 43 percent.63

•    Collection due process – The Appeals Officers and Settlement Officers
     (hearing officers) substantially complied with the requirements of the law
     when conducting Collection Due Process hearings. The hearing officers
     verified that the IRS followed applicable laws or administrative procedures
     during the lien and levy process. They determined if the proposed collection
     actions properly balanced the need for efficient collection of taxes with any
     legitimate taxpayer concerns. In addition, the hearing officers followed
     appeals procedures by including information, such as the court in which
     taxpayers must file requests for judicial review, any relief given to taxpayers,
     and any subsequent actions to be taken by the IRS and the taxpayer.64

•    Section 1203 allegations – Section 1203 of RRA 98 provides the IRS
     Commissioner with the authority to terminate the employment of IRS
     employees for committing certain violations in connection with the
     performance of their official duties. The IRS Commissioner also has the sole
     authority to determine whether mitigating factors exist that weigh against
     termination.

     TIGTA’s Office of Investigations is responsible for the initial investigation of
     most section 1203 allegations. These include allegations related to employee
     false statements under oath, harassment, falsification or destruction of

60
   5 U.S.C. § 552(b)(7) (2005).
61
   5 U.S.C. § 552a (2005).
62
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-064, IMPROVEMENTS
ARE NEEDED TO ENSURE COMPLIANCE WITH THE FREEDOM OF INFORMATION ACT (2004).
63
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, DRAFT, AUDIT NO. 200410032, SOME
IMPROVEMENTS HAVE BEEN MADE TO BETTER COMPLY WITH FREEDOM OF INFORMATION ACT
REQUIREMENTS (2004).
64
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-067, APPEALS
COMPLIED WITH THE PROVISIONS OF THE LAW FOR THE COLLECTION DUE PROCESS (2004).


                                          18
     documents, assault or battery of a taxpayer, or threat of examination of a
     taxpayer for personal gain.

     The IRS’ process for handling section 1203 allegations ensured that they
     were referred for action and management responses were accounted for and
     addressed. The IRS properly controlled referred allegations and reports of
     investigation. In addition, the IRS and the section 1203 Review Board
     adequately controlled 141 cases forwarded to the Board for final
     determination during the 15-month period ending March 31, 2004.

     While reviewing case processing, we identified 198 cases as of
     March 31, 2004, that were open for over 180 calendar days without
     resolution. The IRS Labor Relations Office performed informal monthly
     reviews of cases over 180 calendar days old, but did not document their
     follow-up activities or reasons for the delay in the case histories. We
     identified some cases where no activity was noted or explanation given for
     the delay in resolving cases that were over 180 days old. In such cases,
     management oversight is needed to ensure more timely resolution of section
     1203 cases to eliminate unnecessary stress to employees when cases are
     needlessly delayed.65

Neither TIGTA nor the IRS could consistently or accurately evaluate the IRS’
compliance with the following three provisions since IRS information systems are
inadequate to track such cases:

     •   Restrictions on directly contacting taxpayers and their authorized
         representatives;66
     •   Requirements for the disclosure of collection activity with respect to joint
         returns;67 and,
     •   Fair Debt Collection Practices Act (FDCPA) violations.68




65
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2004-40-176,
RESTRUCTURING AND REFORM ACT OF 1998 SECTION 1203 ALLEGATIONS WERE PROPERLY
CONTROLLED (2004).
66
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-040, FISCAL
YEAR 2005 STATUTORY REVIEW OF RESTRICTIONS ON DIRECTLY CONTACTING TAXPAYERS (2005).
67
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-40-041, FISCAL
YEAR 2005 STATUTORY REVIEW OF DISCLOSURE OF COLLECTION ACTIVITY WITH RESPECT TO JOINT
RETURNS (2005).
68
   The IRS tracks potential FDCPA violations, but TIGTA cannot be certain that all violations are
tracked. TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION, REF. NO. 2005-10-051, THERE
WERE NO ADMINISTRATIVE OR CIVIL ACTIONS WITH RESPECT TO VIOLATIONS OF FAIR TAX COLLECTION
PRACTICES IN CALENDAR YEAR 2004 (2005).


                                               19
Recommended Changes to RRA 98

As Inspector General, I have a duty to ensure that TIGTA’s resources are
effectively allocated to the highest priority, mission-critical work. Along those
lines, I would like to take this opportunity to note that Congress should review
certain requirements established by RRA 98 with the possibility of updating it to
reflect changes in the IRS environment since the law was passed. The following
areas in RRA 98 are among those I believe are appropriate for such
consideration based on TIGTA’s collective experience gathered from the last
seven years of performing these audits and investigations.

First, I recommend changing the annual reporting requirement for evaluating the
IRS’ compliance with various matters to a biennial requirement.69 After auditing
the same areas for the last seven years, it has become apparent that, due to the
frequency of these audits, there is little change in TIGTA’s findings from one year
to the next. The IRS does not have sufficient time to implement corrective action
before the next audit begins. Biennial reporting would provide a more meaningful
picture of the IRS’ progress in meeting congressional expectations.

Second, RRA 98 requires that TIGTA report on (1) the IRS’ compliance with
restrictions on directly contacting taxpayers and their authorized
representatives;70 (2) the IRS’ compliance with provisions regarding the
disclosure of information to an individual filing a joint return on collection activity
involving the other individual filing the return;71 and, (3) administrative or civil
actions with respect to violations of the fair debt collection provisions.72 While I
recognize the public interest that could be served by these requirements, TIGTA
cannot conduct substantive audit work because IRS systems do not capture the
appropriate data. In the third category, fair debt collection, our audit work of
incomplete data has identified only minor and limited issues. Additionally,
RRA 98 created requirements that TIGTA report data on allegations and
complaints that are received by TIGTA and the IRS.73 Although TIGTA has
attempted to comply with these requirements, we cannot control the IRS’
activities and data collection. These mandatory reporting requirements should
be eliminated in favor of discretionary reviews.

69
   TIGTA is currently required to report each year on the IRS’ compliance with the law in the
following areas: (1) notice of levy; (2) restrictions on the use of enforcement statistics to evaluate
employees; (3) notice of lien; (4) seizures; (5) Illegal Tax Protestor designations; (6) extensions of
the assessment statute of limitations; (7) denials of requests for information under the Freedom of
Information Act; (8) collection due process; (9) section 1203 allegations; (10) restrictions on
directly contacting taxpayers instead of authorized representatives; (11) requirements for
disclosing collection activity related to joint returns; and, (12) violations of the Fair Debt Collection
Practices Act.
70
   26 U.S.C. § 7803(d)(1)(A)(ii).
71
   26 U.S.C. § 7803(d)(1)(B).
72
   26 U.S.C. § 7803(d)(1)(G).
73
   26 U.S.C. § 7803(d)(2).


                                                  20
Third, I strongly urge the Congress to consider reinstating the authority of TIGTA
to protect IRS employees from individuals who threaten their safety as they work
to administer the tax laws. TIGTA’s predecessor, the IRS Inspection Service,
had primary responsibility for providing armed escorts for IRS employees working
in potentially dangerous situations. The Inspector General Act of 1978,74 as
amended by RRA 98, provides that TIGTA “shall be responsible for protecting
the Internal Revenue Service against external attempts to corrupt or threaten
employees of the Internal Revenue Service, but shall not be responsible for . . .
the providing of physical security.”75 TIGTA is not seeking to provide routine
security of IRS buildings (i.e., guard services) nor is it proposing to take on
program operating responsibilities. Instead, TIGTA would provide protection to
individual IRS employees who encounter potentially dangerous taxpayers (PDTs)
when executing their official duties to enable the IRS to fulfill its tax
administration responsibilities. TIGTA’s provision of armed escort services falls
seamlessly in line with the unique mission that Congress gave TIGTA – to protect
IRS employees against external threats.

With the IRS Commissioner’s commitment to expand IRS examination and
collection activities, TIGTA expects an increased need for armed escorts of IRS
personnel who work in potentially dangerous environments. The responsibility
for conducting armed escorts currently lies with the IRS Criminal Investigation
(CI) function. In preliminary discussions, IRS CI has expressed an interest in
having the responsibility for conducting armed escorts that involve PDTs
transferred to TIGTA. Thus, it would be efficient and effective to expand TIGTA’s
statutory protection duties to include the authority to provide armed escorts to
IRS employees.

Lastly, subsections 1203(b)(3) and (6) of RRA 98 should be amended to prevent
IRS employees from using this law to file baseless or frivolous complaints against
other IRS employees. In general, section 1203(b) of RRA 98 delineates the
causes for termination of IRS employees who commit one of the offenses
described. From our experience, IRS employees are misusing section 1203(b) to
assert baseless or retaliatory complaints against IRS managers or fellow IRS
employees. TIGTA wants to divert the resources currently allocated to
addressing these complaints to more important law enforcement efforts.
Outside of section 1203(b), IRS employees with complaints against other IRS
employees have various methods of recourse including the equal employment
opportunity complaint process and other personnel support resources. This
proposal does not include circumscribing the authority of TIGTA to investigate
assault or battery allegations between IRS employees contained in section
1203(b)(5).



74
     5 U.S.C. app. 3 (2005).
75
     5 U.S.C. app. 3 § 8D(k)(1)(C).


                                       21
TIGTA recommends that subsections 1203(b)(3) and (6) be amended so that IRS
employees may no longer invoke them against other IRS employees. Those
subsections, however, would still be available to taxpayers and taxpayers’
representatives for complaints against IRS employees.

Mr. Chairman and Members of the Joint Review, I appreciate the opportunity to
share with you today several significant challenges that confront the IRS. TIGTA
will continue its efforts to provide reliable and objective assessments of the IRS’
progress in addressing the security and modernization of its systems, balancing
enforcement and customer service, handling the workload of the filing season,
and addressing the issues raised by RRA 98. Additionally, TIGTA will continue
to investigate employee misconduct and external threats that jeopardize the
integrity, efficiency, and effectiveness of the nation’s tax administration system.




                                        22
